Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




          MEDICARE
   CONTRACTORS NATIONWIDE
     OVERPAID MILLIONS TO
  PROVIDERS FOR FULL VIALS OF
          HERCEPTIN


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                     November 2013
                                                     A-05-13-00024
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at https://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

 Most payments that Medicare contractors made to providers for full vials of Herceptin were
 incorrect, resulting in overpayments of approximately $24.2 million.

WHY WE DID THIS REVIEW

Herceptin, also known as trastuzumab, is a Medicare-covered drug used to treat breast cancer
that has spread to other parts of the body and is supplied in a multiuse vial containing
440 milligrams. For multiuse vials, Medicare pays only for the amount administered to a
beneficiary and does not pay for any discarded drug.

In recent years, the Office of Inspector General (OIG) has conducted several audits that, among
other things, found that overpayments were made on claims for full vials of Herceptin. On the
basis of these reviews, we performed a pilot review that focused specifically on payments for full
vials of Herceptin by a Medicare contractor. This pilot review found that $3.3 million, or
78 percent, of the payments that the contractor made to providers were incorrect. Because of the
significant error rate of this pilot review, we expanded our review of the billing for Herceptin to
include reviews at all Medicare contractors nationwide.

Our objectives were to (1) summarize the results of our individual reviews related to incorrect
billings for full vials of Herceptin and (2) determine the effectiveness of the Herceptin-specific
edit that was implemented after our audit period.

BACKGROUND

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains line items that detail each provided service. Providers must
use the appropriate Healthcare Common Procedure Coding System (HCPCS) code for the drug
administered and report units of service in multiples of the units shown in the HCPCS narrative
description. Multiuse vials are not subject to payment for discarded amounts of the drug.
Multiuse vials are typically used for more than one date of service and can be stored for up to
28 days. Therefore, a payment for an entire multiuse vial is likely to be incorrect.

HOW WE CONDUCTED THIS REVIEW

For the 3-year period January 1, 2008, through December 31, 2010, Medicare contractors
processed 170,606 outpatient Part B service line items of Herceptin totaling approximately
$295.3 million. Of these 170,606 line items, 26,143 had unit counts with multiples of 44 (44, 88,
132, etc.) that represent billings equivalent to entire multiuse vials. Of these 26,143 line items,
we reviewed 26,042 items totaling approximately $69 million paid by 12 Medicare contractors in
15 jurisdictions in 18 separate audit reports. We did not review 101 line items associated with 6
providers. Three of the six providers are no longer in business, one provider’s records center
was destroyed during a tornado, and two providers’ line items were reviewed in other OIG
audits.
Medicare Contractors Nationwide Overpaid Millions to Providers for Full Vials of Herceptin (A-05-13-00024)   i
We also analyzed all lines in error for the various Herceptin reviews to determine whether the
Herceptin-specific edit that was implemented after our audit period would have identified these
errors had it been in place during our audit period.

WHAT WE FOUND

Most payments that Medicare contractors made to providers for full vials of Herceptin were
incorrect. Specifically, of the 26,042 line items reviewed, 19,954 (77 percent) were incorrect
and included overpayments of about $24.2 million, or more than one-third of total dollars
reviewed. These providers had not identified or refunded these payments by the beginning of
our reviews. Prior to our audit work, and not as a result of our audit, providers had refunded
overpayments on 1,484 line items totaling approximately $1.9 million. The 4,604 remaining line
items were correct.

On nearly all of the 19,954 incorrect line items, the providers reported the units of service for the
entire content of 1 or more vial(s), each containing 440 milligrams of Herceptin, rather than
reporting the units of service for the amount actually administered. The providers attributed the
incorrect payments to clerical errors and to billing systems that could not prevent or detect the
incorrect billing of units of service.

Medicare contractors made these incorrect payments because neither the Fiscal Intermediary
Standard System nor the Common Working File had sufficient edits in place during our audit
period to prevent or detect the overpayments. During our audit period, there was no specific edit
to identify Herceptin claims incorrectly billed as full vials.

In March 2011, CMS issued guidance to Medicare contractors that required them to implement
certain Medically Unlikely Edits (MUEs), including an edit related to Herceptin. However, of
the 19,954 lines in error identified through the various reviews, we determined that 19,805
(99 percent) were instances in which the providers billed units that did not represent unlikely
dosages administered to patients. Although we have not addressed in this report the specific
reasons that the MUE was ineffective, we have discussed this issue with CMS officials.
Herceptin is one of many multiuse drugs. Therefore, the problem of provider billing for full
vials may exist with other such drugs.

WHAT WE RECOMMEND

We recommend that CMS:

    •   ensure that Medicare contractors collect the identified overpayment amounts as
        recommended in our individual reports,

    •   review payments made to providers after our audit period ended December 31, 2010, for
        full vials of Herceptin and recover any identified overpayments,




Medicare Contractors Nationwide Overpaid Millions to Providers for Full Vials of Herceptin (A-05-13-00024)   ii
    •   require that Medicare contractors implement a Herceptin-specific system edit to identify
        for review claim lines billed for HCPCS code J9355 with unit counts in multiples of 44
        that represent billings equivalent to entire multiuse vial(s), and

    •   review other multiuse-vial drugs to determine whether system edits are needed to prevent
        incorrect billings.

CMS COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CMS concurred with our first two recommendations but
disagreed with our remaining two recommendations. Regarding our first recommendation, CMS
confirmed that its contractors have already recovered $17.8 million of the approximately
$24 million in overpayments identified in our reviews and will continue to ensure that the
remaining overpayments are collected to the maximum extent possible. Regarding our second
recommendation, CMS stated that it would direct its contractors to review payments made to
providers after our audit period ended December 31, 2010, and to recover, as appropriate, any
identified overpayments.

CMS disagreed with our recommendation to implement a Herceptin-specific edit. CMS stated
that an edit “with no manual review by a clinician would not accurately identify incorrect billing
in all cases, while any such medical review would not likely be feasible due to resource
constraints.” CMS also disagreed with our recommendation to review other multiuse-vial drugs
to determine whether system edits are needed. CMS stated that Herceptin “is an unusual
situation in that reconstitution with the supplied diluent creates a multidose vial” and
“[d]iscarded amounts of the drug cannot be paid under Medicare Part B’s discarded drugs policy
as this policy pertains to single use vials.” CMS added that most drugs are reconstituted with
sterile water resulting in a single-use vial.

We appreciate CMS’s efforts to recover all identified Herceptin-related overpayments and to
direct its contractors to review all Herceptin-related payments of full vials to providers
subsequent to our audit period. However, after review and consideration of CMS’s comments,
we maintain that our remaining two recommendations are valid.

Regarding our recommendation to implement a Herceptin-specific edit, we acknowledge that the
claims identified by such an edit would require manual review. However, considering that
77 percent of the claims we reviewed had overpayments totaling $24.2 million, we encourage
CMS to explore the potential return on investment of performing these reviews. In addition, we
continue to recommend that CMS review other multiuse-vial drugs to determine whether system
edits are needed to prevent incorrect billings. A multiuse vial, when reconstituted with a
preservative, is generally stable for up to 28 days unless the manufacturer specifies otherwise.
CMS guidance states that Medicare does not pay for discarded amounts of multiuse-vial drugs.
Therefore, billing the entire amount of a multiuse-vial drug reconstituted with a preservative has
a greater possibility of being incorrectly billed and resulting in overpayments, as evident from
our 18 reviews.



Medicare Contractors Nationwide Overpaid Millions to Providers for Full Vials of Herceptin (A-05-13-00024)   iii
                                                     TABLE OF CONTENTS


INTRODUCTION ........................................................................................................................ 1

           Why We Did This Review ................................................................................................ 1

           Objectives ......................................................................................................................... 1

           Background ....................................................................................................................... 1
                 The Medicare Program: How It Is Administered and How Medicare
                   Contractors Pay Providers for Outpatient Services ........................................... 1
                 Providers Must Submit Accurate Claims for Drugs Under the
                   Medicare Program .............................................................................................. 2
                 Herceptin Attacks Specific Cancer Cells .............................................................. 2

           How We Conducted This Review..................................................................................... 3

FINDINGS .................................................................................................................................... 3

           Overpayments Occurred on Most Line Items ................................................................... 4
                 Incorrect Number of Units of Service ................................................................... 5
                 Unsupported Services ........................................................................................... 5
                 Other Incorrect Line Items .................................................................................... 5

           The Existing Herceptin-Specific Edit Would Not Have Identified Most Errors .............. 5

           Conclusion ........................................................................................................................ 5

RECOMMENDATIONS .............................................................................................................. 6

CMS COMMENTS ..................................................................................................................... 6

OUR RESPONSE ......................................................................................................................... 7

APPENDIXES

           A: Audit Scope and Methodology ................................................................................... 8

           B: Related Office of Inspector General Reports ............................................................ 10

           C: List of Overpayment Amounts by Jurisdiction ......................................................... 11

           D: Agency Comments .................................................................................................... 12



Medicare Contractors Nationwide Overpaid Millions to Providers for Full Vials of Herceptin (A-05-13-00024)                                          iv
                                                INTRODUCTION

WHY WE DID THIS REVIEW

Herceptin, 1 also known as trastuzumab, is a Medicare-covered drug used to treat breast cancer
that has spread to other parts of the body and is supplied in a multiuse vial containing
440 milligrams. A multiuse vial contains more than one dose of medication and is labeled as
such by the manufacturer. For multiuse vials, Medicare pays only for the amount administered
to a beneficiary and does not pay for any discarded drug.

In recent years, the Office of Inspector General (OIG) has conducted several audits that, among
other things, found that overpayments were made on claims for full vials of the drug Herceptin.
On the basis of these reviews, we performed a pilot review 2 that focused specifically on
payments for full vials of Herceptin by a Medicare contractor. This pilot review found that
$3.3 million, or 78 percent, of the payments that the contractor made to providers were incorrect.
Because of the significant error rate of this pilot review, we expanded our review of the billing
for Herceptin to include reviews at all Medicare contractors nationwide.

OBJECTIVES

Our objectives were to (1) summarize the results of our individual reviews related to incorrect
billings for full vials of Herceptin and (2) determine the effectiveness of the Herceptin-specific
edit that was implemented after our audit period.

BACKGROUND

The Medicare Program: How It Is Administered and How Medicare Contractors Pay
Providers for Outpatient Services

The Medicare program provides health insurance for people aged 65 and over and those who are
disabled or have permanent kidney disease. 3 The Centers for Medicare & Medicaid Services
(CMS) administers the program. CMS contracts with Medicare contractors to, among other
things, process and pay Medicare claims submitted for outpatient services. 4 The contractors’
responsibilities include determining reimbursement amounts, conducting reviews and audits, and

1
    Herceptin is Genentech’s registered trademark for the drug trastuzumab.
2
 The Medicare Contractor’s Payments in Jurisdictions 6, 8, and 15 to Providers for Full Vials of Herceptin Were
Often Incorrect, A-05-10-00091, issued July 10, 2012.
3
    Sections 1811 and 1836 of the Social Security Act.
4
 Federal law required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative
contractors (MACs) between October 2005 and October 2011 (§ 911 of the Medicare Prescription Drug,
Improvement, and Modernization Act of 2003, P.L. No. 108-173). Most, but not all, of the MACs are fully
operational; for jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers
continue to process claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or
MAC, whichever is applicable, that processes and pays outpatient Part B claims.


Medicare Contractors Nationwide Overpaid Millions to Providers for Full Vials of Herceptin (A-05-13-00024)          1
safeguarding against fraud and abuse. Federal guidance requires that Medicare contractors
maintain adequate internal controls over automatic data processing systems to prevent increased
program costs and erroneous or delayed payments. To process providers’ claims for outpatient
services, the Medicare contractors use the Fiscal Intermediary Standard System and CMS’s
Common Working File (CWF). The CWF can detect certain improper payments during
prepayment validation.

Providers Must Submit Accurate Claims for Drugs Under the Medicare Program

Medicare guidance requires providers to submit accurate claims for outpatient services. 5 Each
claim contains line items that detail each provided service. 6 Providers must use the appropriate
Healthcare Common Procedure Coding System (HCPCS) code 7 for the drug administered and
report units of service in multiples of the units shown in the HCPCS narrative description. 8
Multiuse vials are not subject to payment for discarded amounts of the drug. 9 Multiuse vials are
typically used for more than one date of service and can be stored for several days. Therefore, a
payment for an entire multiuse vial is likely to be incorrect.

Herceptin Attacks Specific Cancer Cells

Herceptin is a monoclonal antibody, one of a group of drugs designed to attack specific cancer
cells. The manufacturer supplies the drug in a carton containing a multiuse vial of
440 milligrams of Herceptin and one 20-milliliter vial of bacteriostatic water for injection
(BWFI) containing a solution of 1.1 percent of benzyl alcohol as a preservative. A vial of
Herceptin, when reconstituted with BWFI and stored properly, can be used for up to 28 days.
When a patient is allergic to benzyl alcohol, sterile water without a preservative should be used
and any unused portion of the mixture discarded. The HCPCS code for Herceptin is J9355, with
a narrative description of “injection, trastuzumab 10mg.” An entire multiuse vial of
440 milligrams of reconstituted Herceptin when administered would be reported as 44 units for
Medicare billing.




5
 CMS guidance states that bills must be submitted accurately to be processed correctly (CMS’s Medicare Claims
Processing Manual, Pub. No. 100-04, chapter 1, § 80.3.2.2).
6
  Section 1833(e) of the Social Security Act states that no payment shall be made to any provider of services unless
the necessary information about the amounts being paid has been furnished.
7
 CMS guidance states that providers must use HCPCS codes for most outpatient services (CMS’s Medicare Claims
Processing Manual, Pub. No. 100-04, chapter 23, § 20.3).
8
 CMS guidance states that when a provider is billing for a drug “[w]here HCPCS is required, units are entered in
multiples of the units shown in the HCPCS narrative description. For example, if the description for the code is
50 mg and 200 mg are provided, units are shown as 4....” (CMS’s Medicare Claims Processing Manual,
Pub. No. 100-04, chapter 17, § 70).
9
 CMS guidance states that multiuse vials are not subject to payment for discarded amounts of the drug (CMS’s
Medicare Claims Processing Manual, Pub. No. 100-04, chapter 17, § 40).

Medicare Contractors Nationwide Overpaid Millions to Providers for Full Vials of Herceptin (A-05-13-00024)             2
HOW WE CONDUCTED THIS REVIEW

For the 3-year period January 1, 2008, through December 31, 2010, Medicare contractors
processed 170,606 10 outpatient Part B service line items of Herceptin totaling approximately
$295.3 million. Of these 170,606 line items, 26,143 11 had unit counts with multiples of 44
(44, 88, 132, etc.) that represent billings equivalent to entire multiuse vials. Of these 26,143 line
items, we reviewed 26,042 items totaling approximately $69 million. We did not review 101
line items associated with 6 providers. Three of the six providers are no longer in business, one
provider’s records center was destroyed during a tornado, and two providers’ line items were
reviewed in other OIG audits.

We also analyzed all lines in error for the various Herceptin reviews to determine whether the
Herceptin-specific edit that was implemented after our audit period would have identified these
errors had it been in place during our audit period.

We conducted this review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology. Appendix B lists the final
reports on the individual reviews of all Medicare contractors’ payments to providers for full vials
of Herceptin. Appendix C summarizes the results of those reviews.

                                                  FINDINGS

Most payments that Medicare contractors made to providers for full vials of Herceptin were
incorrect. (See the figure on the next page.)




10
  Of these 170,606 line items, 7,548 items totaling $11.6 million were processed during calendar year 2007 and
were included in the pilot report, The Medicare Contractor’s Payments in Jurisdictions 6, 8, and 15 to Providers for
Full Vials of Herceptin Were Often Incorrect, A-05-10-00091, issued July 10, 2012.
11
  Of the 26,143 line items, 27 were included because they exceeded $10,000. Although these high-dollar items did
not represent billings equivalent to a full vial, they were included because they were likely to be incorrect.

Medicare Contractors Nationwide Overpaid Millions to Providers for Full Vials of Herceptin (A-05-13-00024)         3
                           Results of Line Items Reviewed

              Adjusted Prior to
                                      1,484 (6%)
                Audit Work



                      Incorrect                               19,954 (77%)

                                                                                 26,042 - Line
                                                                                 Items Reviewed
                        Correct          4,604 (17%)


                                  -         10,000        20,000       30,000


Of the 26,042 line items reviewed, 19,954 (77 percent) were incorrect and included
overpayments of about $24.2 million, or more than one-third of total dollars reviewed. (See
Appendix C for a listing by jurisdiction of the number of lines reviewed, lines in error, and
overpayment amounts.) For the 19,954 incorrect lines, providers had not identified or refunded
these payments by the beginning of our reviews. Prior to our audit work, and not as a result of
our audit, providers had refunded overpayments on 1,484 line items totaling approximately
$1.9 million. The 4,604 remaining line items were correct.

On nearly all of the incorrect line items, providers reported the units of service for the entire
content of one or two vial(s), each containing 440 milligrams of Herceptin, rather than reporting
the units of service for the amount actually administered.

The providers attributed the incorrect payments to clerical errors and to billing systems that
could not prevent or detect the incorrect billing units of service. The Medicare contractors made
these incorrect payments because neither the Fiscal Intermediary Standard System nor the CWF
had sufficient edits in place during our audit period to prevent or detect the overpayments.

During our audit period, there was no specific edit to identify Herceptin claims incorrectly billed
as full vials. After our audit period, CMS issued guidance to Medicare contractors that required
them to implement certain Medically Unlikely Edits (MUEs), including an edit related to
Herceptin. Of the 19,954 claim lines we identified as containing errors, we determined that the
current MUE would not have identified for review 19,805 (99 percent) of these claim lines.

OVERPAYMENTS OCCURRED ON MOST LINE ITEMS

Providers reported incorrect units of service on 19,954 (77 percent) of the 26,042 line items
reviewed, resulting in overpayments totaling approximately $24.2 million (35 percent) of the
approximately $69 million reviewed.




Medicare Contractors Nationwide Overpaid Millions to Providers for Full Vials of Herceptin (A-05-13-00024)   4
Incorrect Number of Units of Service

Providers reported incorrect units of service on 19,737 line items, resulting in overpayments
totaling $23,316,522. Providers billed Medicare for entire vials containing 440 milligrams of
Herceptin, rather than billing only for the amounts actually administered.

For example, one provider administered 130 milligrams of Herceptin to a patient and billed for
44 units of service (440 milligrams). On the basis of the HCPCS description of Herceptin
(injection, trastuzumab, 10 milligrams), the number of units to be reported for 130 milligrams is
13. 12 This error occurred on 98 separate occasions for 1 patient; as a result, the Medicare
contractor paid the provider $218,486 when it should have paid $64,552, an overpayment of
$153,934. 13

Unsupported Services

Providers billed Medicare for 209 line items for which the providers did not provide supporting
documentation. The providers agreed to cancel the line items and refund $583,692 in
overpayments received.

Other Incorrect Line Items

Providers billed Medicare for eight line items that contained incorrectly billed services or
charges, or a combination of unit and HCPCS coding errors, resulting in overpayments of
$16,171.

THE EXISTING HERCEPTIN-SPECIFIC EDIT
WOULD NOT HAVE IDENTIFIED MOST ERRORS

In March 2011, CMS issued guidance to Medicare contractors that required them to implement
certain MUEs, including an edit related to Herceptin. However, of the 19,954 lines in error
identified through the various reviews, we determined that the MUE implemented after our audit
period would not have identified 19,805 (99 percent) of these lines. Although we have not
addressed in this report the specific reasons that the MUE was ineffective, we have discussed this
issue with CMS officials.

CONCLUSION

Our individual reviews of Herceptin nationwide found a significant error rate (77 percent), with
overpayments of $24.2 million for providers billing full vials of Herceptin. On the basis of our
analysis of the identified errors in these reviews, we determined that the current Herceptin-
specific edit would not have identified 99 percent of claim lines in error. Herceptin is one of

12
  If the drug dose used in the care of a patient is not a multiple of the HCPCS code dosage descriptor, the provider
rounds to the next highest unit on the basis of the HCPCS long descriptor to report the dose.
13
  Example obtained from report Medicare Contractors’ Payments in Jurisdiction 1 for Full Vials of Herceptin Were
Often Incorrect, A-09-12-02069, issued February 13, 2013.

Medicare Contractors Nationwide Overpaid Millions to Providers for Full Vials of Herceptin (A-05-13-00024)             5
many multiuse-vial drugs. Therefore, the problem of provider billing for full vials may exist
with other such drugs.

                                        RECOMMENDATIONS

We recommend that CMS:

    •   ensure that Medicare contractors collect the identified overpayment amounts as
        recommended in our individual reports,

    •   review payments made to providers after our audit period ended December 31, 2010, for
        full vials of Herceptin and recover any identified overpayments,

    •   require that Medicare contractors implement a Herceptin-specific system edit to identify
        for review claim lines billed for HCPCS code J9355 with unit counts in multiples of 44
        that represent billings equivalent to entire multiuse vial(s), and

    •   review other multiuse-vial drugs to determine whether system edits are needed to prevent
        incorrect billings.

                                           CMS COMMENTS

In written comments on our draft report, CMS concurred with our first two recommendations but
disagreed with our remaining two recommendations. Regarding our first recommendation, CMS
confirmed that its contractors have already recovered $17.8 million of the approximately
$24 million in overpayments identified in our reviews and will continue to ensure that the
remaining overpayments are collected to the maximum extent possible. Regarding our second
recommendation, CMS stated that it would direct its contractors to review payments made to
providers after our audit period ended December 31, 2010, for full vials of Herceptin and to
recover, as appropriate, any identified overpayments.

CMS disagreed with our recommendation to implement a Herceptin-specific edit. CMS stated
that an edit “with no manual review by a clinician would not accurately identify incorrect billing
in all cases, while any such medical review would not likely be feasible due to resource
constraints.” CMS also disagreed with our recommendation to review other multiuse-vial drugs
to determine whether system edits are needed. CMS stated that Herceptin “is an unusual
situation in that reconstitution with the supplied diluent creates a multidose vial” and
“[d]iscarded amounts of the drug cannot be paid under Medicare Part B’s discarded drugs policy
as this policy pertains to single use vials.” CMS added that most drugs are reconstituted with
sterile water resulting in a single-use vial.

CMS’s comments are included in their entirety as Appendix D.




Medicare Contractors Nationwide Overpaid Millions to Providers for Full Vials of Herceptin (A-05-13-00024)   6
                                            OUR RESPONSE

We appreciate CMS’s efforts to recover all identified Herceptin-related overpayments and to
direct its contractors to review all Herceptin-related payments of full vials to providers
subsequent to our audit period. However, after review and consideration of CMS’s comments,
we maintain that our remaining two recommendations are valid.

Regarding our recommendation to implement a Herceptin-specific edit, we acknowledge that the
claims identified by such an edit would require manual review. However, considering that
77 percent of the claims that we reviewed had overpayments totaling $24.2 million, we
encourage CMS to explore the potential return on investment of performing these reviews. In
addition, we continue to recommend that CMS review other multiuse-vial drugs to determine
whether system edits are needed to prevent incorrect billings. A multiuse vial, when
reconstituted with a preservative, is generally stable for up to 28 days unless the manufacturer
specifies otherwise. CMS guidance states that Medicare does not pay for discarded amounts of
multiuse-vial drugs. Therefore, billing the entire amount of a multiuse-vial drug reconstituted
with a preservative has a greater possibility of being incorrectly billed and resulting in
overpayments, as evident from our 18 reviews.




Medicare Contractors Nationwide Overpaid Millions to Providers for Full Vials of Herceptin (A-05-13-00024)   7
                     APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

During our audit period, Medicare contractors processed 170,606 14 outpatient Part B service line
items of Herceptin totaling approximately $295.3 million. Of these 170,606 line items, 26,143 15
had unit counts with multiples of 44 (44, 88, 132, etc.) that represent billings equivalent to entire
multiuse vials. Of these 26,143 line items, we reviewed 26,042 items totaling approximately
$69 million. We did not review 101 line items associated with 6 providers. Three of the six
providers are no longer in business, one provider’s records center was destroyed during a
tornado, and two providers’ line items were reviewed in other OIG audits.

We also analyzed all lines in error for the various reviews to determine whether the Herceptin-
specific edit that was implemented after our audit period would have identified these errors had it
been in place during our audit period.

We limited our review of Medicare contractors’ internal controls to those that were applicable to
the selected payments because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review allowed us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

We conducted the fieldwork for individual reviews from November 2010 through December 2012
and contacted all Medicare contractors and providers that received the selected Medicare payments.
We conducted fieldwork for this review from February through May 2013.

METHODOLOGY

To accomplish our objective, we:

     •   reviewed applicable Federal laws, regulations, and guidance;

     •   used CMS’s National Claims History file to identify outpatient line items in which
         payments were made for HCPCS code J9355 (Herceptin);

     •   identified 26,042 line items in our scope that the Medicare contractors paid to 1,006
         providers nationwide;




14
  Of these 170,606 line items, 7,548 totaling $11.6 million were processed during calendar year 2007 and were
included in the pilot report, The Medicare Contractor’s Payments in Jurisdictions 6, 8, and 15 to Providers for Full
Vials of Herceptin Were Often Incorrect, A-05-10-00091, issued July 10, 2012.
15
  Of the 26,143 line items, 27 were included because they exceeded $10,000. Although these high-dollar items did
not represent billings equivalent to a full vial, they were included because they were likely to be incorrect.

Medicare Contractors Nationwide Overpaid Millions to Providers for Full Vials of Herceptin (A-05-13-00024)         8
    •   contacted providers that received Medicare payments associated with the selected line
        items to determine whether the information conveyed in the selected line items was
        correct and, if not, why the information was incorrect;
    •   reviewed documentation that the providers furnished to verify whether each selected line
        item was billed correctly; specifically, we reviewed documentation to support:

            o the medical condition of the beneficiary in determining the necessity of the
              medication,

            o a physician’s orders for medication,

            o the fact that the medication was administered, and

            o the type of solution used to reconstitute the Herceptin (BWFI containing
              1.1 percent benzyl alcohol or sterile water);

    •   coordinated the calculation of overpayments and discussed the results of our review with
        Medicare contractors;

    •   summarized the results of the various Herceptin reviews;

    •   analyzed all lines in error for the various Herceptin reviews and determined whether the
        Herceptin-specific edit that was implemented after our audit period would have identified
        these errors had it been in place during our audit period; and

    •   discussed the results of our reviews and the ineffectiveness of the current Herceptin-
        specific edit with CMS.

We conducted this review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




Medicare Contractors Nationwide Overpaid Millions to Providers for Full Vials of Herceptin (A-05-13-00024)   9
       APPENDIX B: RELATED OFFICE OF INSPECTOR GENERAL REPORTS


                            Report Title                              Report Number        Date Issued
Medicare Contractors’ Payments in Jurisdiction 1 for Full Vials of   A-09-12-02069       2/13/2013
Herceptin Were Often Incorrect
The Medicare Contractor’s Payments in Jurisdiction 2 for Full        A-09-12-02003       11/6/2012
Vials of Herceptin Were Often Incorrect
The Medicare Contractor’s Payments in Jurisdiction 3 for Full        A-07-12-04186       11/20/2012
Vials of Herceptin Were Often Incorrect
Medicare Contractors’ Payments Made to Providers Currently           A-06-12-00001       12/3/2012
Assigned to Jurisdiction 4 for Full Vials of Herceptin Were Often
Incorrect
The Medicare Contractor’s Payments in Jurisdiction 5 for Full        A-07-12-04187       10/23/2012
Vials of Herceptin Were Often Incorrect
The Medicare Contractor’s Payments in Jurisdiction 6 for Full        A-05-12-00010       7/27/2012
Vials of Herceptin Were Often Incorrect
The Medicare Contractor’s Payments in Jurisdictions 6 and 8 for      A-05-11-00112       12/13/2012
Full Vials of Herceptin Were Often Incorrect
The Medicare Contractor’s Payments in Jurisdictions 6, 8, and 15     A-05-10-00091       7/10/2012
to Providers for Full Vials of Herceptin Were Often Incorrect
Medicare Contractors’ Payments Made to Providers in                  A-06-11-00068       4/23/2013
Jurisdiction 7 for Full Vials of Herceptin Were Often Incorrect
The Medicare Contractor’s Payments to Providers in Jurisdiction      A-04-12-06146       1/7/2013
9 for Full Vials of Herceptin Were Often Incorrect
The Medicare Contractors' Payments in Jurisdiction 10 for Full       A-04-12-03070       1/25/2013
Vials of Herceptin Were Often Incorrect
Medicare Contractors' Payments to Providers in Jurisdiction 11       A-03-11-00013       8/10/2012
for Full Vials of Herceptin Were Often Incorrect
Medicare Contractors' Payments to Providers in Four States in        A-03-11-00014       7/25/2012
Jurisdiction 12 for Full Vials of Herceptin Were Often Incorrect
The Medicare Contractor's Payments to Maryland Providers in          A-03-12-00014       8/16/2012
Jurisdiction 12 for Full Vials of Herceptin Were Sometimes
Incorrect
The Medicare Contractor’s Payments to Providers in Jurisdiction      A-02-12-01003       5/22/2013
13 for Full Vials of Herceptin Were Often Incorrect
Medicare Contractors' Payments in Jurisdiction 14 for Full Vials     A-01-11-00539       8/17/2012
of Herceptin Were Often Incorrect
Medicare Contractors' Payments in Jurisdiction 15 to Providers       A-05-12-00017       12/21/2012
for Full Vials of Herceptin Were Often Incorrect
The Medicare Contractor’s Payments to Providers in 26 States         A-05-11-00114       2/19/2013
From the WPS Legacy Workload for Full Vials of Herceptin Were
Often Incorrect




Medicare Contractors Nationwide Overpaid Millions to Providers for Full Vials of Herceptin (A-05-13-00024)   10
       APPENDIX C: LIST OF OVERPAYMENT AMOUNTS BY JURISDICTION


                                         Lines             Lines        Error         Overpayment
      Jurisdiction    Contractor       Reviewed          in Error       Rate            Amount

                  1   Palmetto                2,005           1,498        75%               $1,731,460

                  2   Noridian                  714             487        68%                  567,008

                  3   Noridian                  634             399        63%                  404,746

                  4   Trailblazer             1,701           1,349        79%                1,777,877

                  5   WPS                       665             540        81%                  635,023

                  6   Noridian                  464             368        79%                  556,908

               6, 8   NGS                       713             558        78%                  682,748

           6, 8, 15   NGS                     3,966           3,093        78%                3,351,807

                  7   Pinnacle                1,607           1,466        91%                1,753,744

                  9   First Coast             1,330           1,043        78%                1,315,409

                 10   Cahaba                  1,140             936        82%                1,516,218

                 11   Palmetto                2,507           2,029        81%                2,397,839

                 12   Novitas                 1,454           1,165        80%                1,576,374

                 12   Novitas                 1,113             319        29%                  351,904

                 13   NGS                     1,156             788        68%                1,007,413

                 14   NHIC                      853             391        46%                  403,396

                 15   CGS                     1,073             916        85%                1,151,915

            Legacy    WPS                     2,947           2,609        89%                3,056,167

      Total                                 26,042           19,954       77%              $24,237,956

CGS = CGS Administrators, NGS = National Government Services, NHIC = NHIC, Corp.,
WPS = Wisconsin Physician Services Insurance Corporation




Medicare Contractors Nationwide Overpaid Millions to Providers for Full Vials of Herceptin (A-05-13-00024)   11
                                      APPENDIX D: AGENCY COMMENTS 




      /-
     ( 1/_
          ...   ...
                      DEPARTMENT OF HEALTII & HUMAN SERVICES                                  C..ntera for Medicare & Medicaid Service6


      '~\.. 	                                                                                 Admi,.istrator
                                                                                              Washington, DC 20201




                      DATE:           SEP 19 2013

                      TO:


                      FROM:


                      SUBJECT: 	Office of Inspector General (OIG) Draft Report: "Medicare Contractors 

                                    Nationwide Overpaid Millions to Providers for Full Vials of Herceptin 

                                    (A-05-13-00024) 


                      Thank you for tlie opportunity to review and comment on the above subject OIG draft report.
                      OIG's objectives for this study are to--(1) Summarize the results of its individual reviews; and
                      (2) Determine the effectiveness ofthe existing Herceptin-specific edit in preventing incorrect
                      billings for full vials ofHerceptin. This report sununarizes OIG's review of Medicare
                      contractors' claims processing for Herceptin, a chemotherapy drug, performed at the individual
                      claims processing contractor level, and describes findings related to CMS' s implementation ofa
                      Medically Unlikely Edit (MUE) in 2011.

                      In total, the study reported findings regarding 170,606 claim lines for Herceptin, representing
                      approximately $295 million in total Medicare billing for a 3-year period, beginning January I,
                      2008. Ofthese 170,606 claim lines, OIG determined that 26,1 43 corresponded to exact multiples
                      ofvials (that is, 44, 88, or 132 billing units), and found, after examining payments for claims
                      corresponding to the exact multiples ofvials, that approximately 77 percent (representing
                      approximately $24.2 million) were paid incorrectly. Specifically, OIG found that providers were
                      billing in increments ofan entire vial, rather than reporting the number of billing units
                      corresponding to the dose that was actually administered. The report notes that providers
                      attributed the incorrect payments to clerical errors and lack ofbilling system checks. OIG also
                      reports that the MUE established for Herceptin would not have effectively identified the vast
                      majority ofthe incorrect claims.

                      The OIG recommendations and CMS responses to the recommendations are discussed below.

                      OIG Recommendation

                      The OIG recommends that CMS ensure that Medicare contractors collect the identified
                      overpayment amounts as recommended in OIG's individual reports.




MedicCO'e Contractors Nationwide Overpaid Millions to Providers for Full Vials ofHerceptin (A-05-13-00024)                                12
                 Page 2 - Daniel R. Levinson

                 CMS Raoonse

                 The CMS concurs with this recommendation. The overpayments should be recovered by the
                 contractors as appropriate, and of the approximately $24 million ofoverpayments identified in
                 the individual reports, CMS confirms that its contractors have already recovered $17.8 miUion.
                 CMS will continue to work with the contractors to ensure that the overpayments identified in the
                 individual reports are collected to the maximum extent possible.

                 OJG Rewmmendatioo

                 The OIG recommends that CMS review payments made to providers after our audit period
                 ending December 31 , 2010, for full vials ofHerceptin and recover any identified overpayments.

                 CMS ResOOPSe

                 The CMS concurs with this recommendation. CMS will direct contractor(s) to review payments
                 made to providers after OIG's audit period ending December 31, 2010, for full vials of
                 Herceptin, and to recover, as appropriate, any identified overpayments.

                  OIG R~mmendatioo

                  The OIG recommends that CMS require that Medicare contractors implement a Herceptin­
                  specific system edit to identify, for review, claim lines billed for Healtbcare Common Procedure
                  Coding System (HCPCS) code J9355 with unit counts in multiples of44 that represent billings
                  equivalent to entire multiuse vial(s).

                  CMS Response

                  The CMS does not concur with this recommendation. Herceptin doses must be individualized
                  and the doses vary over a large range. This range encompasses one or two vials ofthe drug,
                  which is 440mg (44 HCPCS billing units) or 880mg (88 HCPCS blUing units). A national edit
                  for J9355 at 44 or 88 units ofservice with no manual review by a clinician would not accurately
                  identify incorrect billing in all cases, while any such medical review would not likely be feasible
                  due to resource constraints. However, CMS believes that education about proper billing and
                  follow-up scrutiny ofclaims by the Recovery Audit Contractors would reduce incorrect billing
                  ofHerceptin and will be taking steps to educate providers on this issue.

                  OIG Resominendation

                  The OIG recommends that CMS review other multiuse-vial drugs to determine whether system
                  edits are needed to prevent incorrect billings.

                  CMS Resoonse

                  The CMS does not concur with this recommendation. CMS believes that Herceptin is an unusual
                  situation in that reconstitution with the supplied diluent creates a multidose vial. Discarded




Medicare Contractors Nationwide Overpaid Mzllions to Providers for Full Vials ofHerceptin (A-05-13-00024)               13
             Page 3 - Daniel R. Levinson

             amounts of the drug cannot be paid under the Medicare Part B' s discarded drugs policy as this
             policy pertains to single use vials. Most drugs that require reconstitution are reconstituted with
             preservative free diluent and result in a single use vial. However, ifOIG believes there are other
             multidose vials that are subject to incorrect billing as single dose vials, C MS encourages OIG to
             bring them to our attention for further review.

             The CMS thanks OIG for their efforts on this issue and looks forward to working with OIG on
             this and other issues in the future.




Medicare Contractors Nationwide Overpaid Mzllions to Providers for Full Vials ofHerceptin (A-05-13-00024)         14
